TV

C@OQCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

www.cocklelegalbriefs.com

No. 19-930

CIC SERVICES, LLC,
Petitioner,
Vv.
INTERNAL REVENUE SERVICE, DEPARTMENT OF
TREASURY, UNITED STATES OF AMERICA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE CENTER
FOR TAXPAYER RIGHTS AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 6954 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 14th day of July, 2020.
T am duly authorized under the laws of the State of Nebraska to administer oaths.

 

‘My Comm. Exp. September 5, 2023

 

eran] Kense Q.tlaoe? Qader bt. bale

Notary Public Affiant 39765
